The U.S. International Trade Commission is an independent, nonpartisan, quasi-judicial federal agency
that provides trade expertise to both the legislative and executive branches of government, determines the
impact of imports on U.S. industries, and directs actions against certain unfair trade practices, such as
patent, trademark, and copyright infringement. USITC analysts and economists investigate and publish
reports on U.S. industries and the global trends that affect them. The agency also maintains and publishes
the Harmonized Tariff Schedule of the United States.




                                             Commissioners
                                        Irving A. Williamson, Chairman
                                        Dean A. Pinkert, Vice Chairman
                                        David S. Johanson
                                        Meredith M. Broadbent
                                        F. Scott Kieff
                                        Rhonda K. Schmidtlein
OFFICE OF INSPECTOR GENERAL




         UNITED STATES INTERNATIONAL TRADE COMMISSION

                                     WASHINGTON, DC 20436



June 9, 2014                                                               IG-14-011
                                                                           OIG-ML-14-12

Chairman Williamson:

During the course of our audit of the Commission’s methods for making cost estimates for
reports, we identified an expensive practice that may not be necessary. We understand that the
Commission, too, has recognized that the practice of printing and mailing work products and
news releases may be excessive and is evaluating options to change its procedures. Our audit
standards require that we issue this management letter since we are not discussing this issue in
our audit report, as it was unrelated to the objective of the audit.

The internet has transformed the way the Commission communicates information to the public.
The Commission has improved access to its work products and activities by providing the
information on its public website. The website offers any internet user access to the U.S.
Harmonized Tariff Schedule, Commission’s voting results, news releases, publications, reports,
and other work products developed by agency staff.

In addition to posting its work products on its website, the Commission has also continued with
its current expensive practice of printing and mailing reports, news releases, and other work
products through the mail to the general public. From January through mid-September of 2013,
the Commission printed and mailed over 6,000 copies of 46 different reports and mailed over
2,500 news releases to external customers. The estimated cost to print these documents was over
$80,000, and does not include costs incurred for postage, supplies, and staff resources.

When this practice was initiated, mass reproduction of documents and delivery through the
postal service may have been the most efficient option available to disseminate the results of
Commission work. Today, the Commission can provide information more efficiently and at a
reduced cost, through the use of electronic means.
We discussed the content of this Management Letter with Commission management and
received verbal feedback. We are making two recommendations for corrective action.

Recommendation 1: The Commission stop the general printing and mailing of publications,
reports, and news releases to the general public.

Recommendation 2: The Commission establish a process to use electronic means to provide
notification of publications, reports, and news releases to the general public.

In the next 30 days, please provide me with your management decisions describing the actions
you will take to implement the recommendations.

Sincerely,




Philip M. Heneghan
Inspector General




                                            Page 2
“Thacher’s Calculating Instrument” developed by Edwin Thacher in the late 1870s. It is a cylindrical, rotating slide
rule able to quickly perform complex mathematical calculations involving roots and powers quickly. The instrument
was used by architects, engineers, and actuaries as a measuring device.
